No.

In the SUPREME COURT OF THE UNITED STATES

JOHN L. CORRIGAN, SR.

Petitioner,
v.

GRANT COUNTY, a municipal corporation;
D. ANGUS LEE; PATRICK SCHAFF;
JANIS WHITENER-MOBERG;
BRIAN D. BARLOW; JOHN A. ANTOSZ,
and TIMOTHY KRON

Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the Petition for a Writ of
Certiorari to the Supreme Court of the State of Washington contains 2,936 words,
excluding the parts of the document that are exempted by Supreme Court Rule
33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on September 28, 2020.

GTOHN L. CORRIGAN, SR. r
yi NE Blomlie Rd / Bo&/ 846
Belfair, WA 98528
U
Pro Se
253.350.0790
j corrigan25@outlook.com

